NO. 19-984
IN THE

Supreme Court of the United States
MAZIE SLATER KATZ & FREEMAN, LLC,

v.
COMMON BENEFIT FEE AND COST COMMITTEE,

Petitioner,

Respondent.

CERTIFICATE OF WORD COUNT

As required by Supreme Court Rule 33.1(h), I certify that the
document contains 2, 899 words, excluding the parts of the document
that are exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and
correct.
Executed on March 20, 2020.

Rita L. Hemenway
Rita L. Hemenway
NOTARIZED BY:

George D. Bateman
George D. Bateman
My Commission Expires: May 30, 2025

